No. 20-1120

 

 

IN THE
Supreme Court of the Anited States

MELISSA BELGAU, et al.,
Petitioners,
Vv.
JAY INSLEE, IN HIS OFFICIAL CAPACITY AS
GOVERNOR OF THE STATE OF WASHINGTON, et al.,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

REPLY BRIEF FOR PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,999 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 28, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
